No. 20-102
3n tfje Supreme Court of tfje ®niteti States!

CHRISTOPHER HADSELL,
Petitioner,
-vBARRY BASKIN, et al.,
Respondent
PROOF OF SERVICE
I, Candace Miranda, do swear or declare that on this date, November 9,2020, as required by
Supreme Court Rule 29,1 have served three copies of the PETITION FOR REHEARING on each
party to the above proceeding or that party's counsel, and on every other person required to
be served, by depositing an envelope containing the above documents in the United States
mail properly addressed to each of them and with first-class postage prepaid, or by delivery
to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jonathan Matthew Blute
Murphy Pearson Bradley Feeney
88 Kearny St., 10th Fir
San Francisco, CA 94108
Alison Paige Buchanan
60 South Market Street, Ste 1400
San Jose, CA 95113
Patrick L. Hurley
651 Pine St., 9th Fir
Martinez, CA 94553
Catherine Isham
P.0. Box 3248
Danville, CA 94526

Whitney Marie Johnson
Murphy Pearson Bradley & Feeney
88 Kearny St., 10th Fir
San Francisco, CA 94108
Sharon Margaret Nagle
Bold, Polisner, Maddow, Nelson & Judson
2125 Oak Grove Road
Walnut Creek, CA 94598
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 9, 2020.

/I.

Candace Miranda

